                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




             AUDIT OF THE FEDERAL ENERGY REGULATORY

                COMMISSION LEASED WAREHOUSE SPACE




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through the
Internet 5 to 7 days after publication at the following alternative
addresses:


            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vml.hqadmin.doe.gov

     Department of Energy Human Resources and Administration
               http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.




Report Number: CR-B-96-01
Capital Regional Audit Office
Date of Issue: May 24, 1996
Germantown, MD 20874



             AUDIT OF THE FEDERAL ENERGY REGULATORY
                      COMMISSION LEASED WAREHOUSE SPACE


                              TABLE OF CONTENTS


                                                            Page




SUMMARY........................................................ 1

PART I    -       APPROACH AND OVERVIEW.............................. 2


Introduction................................................... 2

              Scope and Methodology................................. 2

              Observations and Conclusions.......................... 2

PART II       -   FINDING AND RECOMMENDATIONS........................ 4

              Minimizing Warehouse Space.............................4

PART III -        MANAGEMENT AND AUDITOR COMMENTS.................... 7
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

             AUDIT OF THE FEDERAL ENERGY REGULATORY
                COMMISSION LEASED WAREHOUSE SPACE


Audit Report Number:   CR-B-96-01

                              SUMMARY

   The Federal Energy Regulatory Commission (Commission) stores
furniture, automated data processing equipment, and office
supplies in a warehouse located in Landover, Maryland. The
annual operating cost for this space (25,830 square feet)
approximates $455,000--$245,000 in lease costs and $210,000 for
contractor personnel. The purpose of the audit was to assess the
effectiveness of the Commission's use of warehouse space. The
specific audit objective was to determine whether the Commission
was minimizing the need for warehouse space for the storage of
office supplies, furniture, and equipment.

   Federal Property Management Regulations and prudent business
practices require Government agencies to minimize their need for
space. More space was being leased than needed because
Commission officials understood that they were obligated by terms
of the lease to pay for the space until March 31, 2002. We
found, however, that there was a misunderstanding by officials,
and that the Commission could at any time relinquish warehouse
space by giving 120 days notice. Because of this
misunderstanding and the recent relocation of the Commission to a
newly furnished facility, about 16,000 square feet of warehouse
space was being used to store furniture and equipment that was no
longer needed by the Commission. An additional 6,000 square feet
of space was used to store office supplies instead of using a
more frequent ordering program that would reduce space
requirements.

   We recommended that the Commission reduce the need for
warehouse space by excessing unneeded furniture and equipment and
reducing the storage of office supplies. We also recommended
that the Commission renegotiate the contract in order to reduce
contractor staff used to operate the warehouse to reflect the
reduction of its operations.

   Commission management plans to reduce warehouse space by
15,830 square feet and retain 10,000 square feet and is reviewing
alternatives and options for expediting their excessing of
property. Further, the Commission plans to reduce the storage of
office supplies by adopting a more frequent ordering program and
plans to renegotiate the warehouse support contract after the
space is relinquished.


                                        ______________________
                                        Office of Inspector General

                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

   On April 1, 1992, the Federal Energy Regulatory Commission
(Commission) leased 25,830 square feet of warehouse space from
the General Services Administration (GSA). At the time of the
review, about 6 years remained on the initial 10-year lease.
Also, costs to lease and operate this space were about $455,000 a
year.

   The purpose of the audit was to assess the effectiveness of
the Commission's use of warehouse space. The audit objective was
to determine whether the Commission was minimizing the need for
warehouse space for the storage of furniture, equipment, and
office supplies.

SCOPE AND METHODOLOGY

   The audit was performed from December 1995 through April 1996
at the Commission's headquarters in Washington, D.C. and at the
Commission's warehouse in Landover, Maryland. Our audit work
included reviews of applicable Federal and Commission regulations
related to warehouse activities. In addition, we reviewed
related management and internal audit reports and reports issued
by the Office of Inspector General.

   To achieve our objective, we (1) determined the amount of
warehouse space used for furniture, equipment, and office
supplies; (2) obtained a copy of and discussed the terms of the
lease agreement for the warehouse; (3) discussed the benefits and
limitations of the "just-in-time" supply program with Commission
and GSA staff; (4) reviewed excess property reports, discussed
the excessing program, and performed limited tests of internal
controls over property; and (5) obtained a copy of and discussed
the contract for operation of the warehouse.

   The audit was made in accordance with generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls regarding
warehouse practices and procedures. Because our review was
limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed. We did not rely on
computer-processed data to accomplish the audit objective.

   An exit conference was waived by the Executive Director on May
22, 1996.

OBSERVATIONS AND CONCLUSIONS
   The Commission was not minimizing the need for warehouse
space. Commission officials understood that they were bound by a
lease with the GSA at an annual cost of about $245,000 until
March 31, 2002. As a result of this understanding and the recent
relocation to a newly furnished facility, about 16,000 square
feet of warehouse space was used to store excess furniture and
equipment. In addition, about 6,000 square feet of space was
used to store an inventory of office supplies instead of
utilizing a more frequent ordering program that would reduce
space requirements. We found that the Commission, by giving a
120-day notice, could relinquish warehouse space thereby saving
leasing costs. Additional savings could be achieved by adjusting
the ordering and delivery program and reducing the contractor
staff in proportion to the reduced warehouse operations.
Further, other organizations could benefit by utilizing the
excess property in the warehouse.

   Part II of this report provides details on our finding and
recommendations. Part III of this report includes detailed
management and auditor comments.

                             PART II

                   FINDING AND RECOMMENDATIONS

                   Minimizing Warehouse Space


FINDING

   Federal Property Management Regulations require Government
agencies to continuously review their space requirements and
minimize the need for space. The Commission was leasing more
warehouse space than needed. About 16,000 square feet of
warehouse space was used to store excess furniture and automated
data processing equipment, and another 6,000 square feet was used
to store office supplies instead of utilizing a more frequent
ordering program that would reduce space requirements.
Commission officials understood from discussions with the GSA
that they were obligated for the annual lease costs until March
31, 2002. We found that there was a misunderstanding by
officials, and that the Commission could relinquish warehouse
space by giving 120 days notice. About $1 million in lease costs
could be saved by relinquishing the vacated space. Additional
savings could be achieved by reducing the office supplies
inventory and reducing the contractor staff in proportion to the
reduced warehouse operations. Further, other organizations could
benefit by utilizing the excess property in the warehouse.

RECOMMENDATIONS

   We recommend that the Executive Director, Federal Energy
Regulatory Commission, take action to:

      Minimize the need for warehouse space by disposing of excess
     property and utilizing a more frequent ordering program for
     office supplies.
      Relinquish vacated warehouse space.

      Renegotiate the contract in order to adjust warehouse
     contractor staff in proportion to the reduction in warehouse
     operations.

MANAGEMENT REACTION

   The Executive Director concurred with the recommendations.
Plans are underway to expedite excessing of property and to
implement an ordering process through the GSA Customer Service
Center program that will make deliveries within 72 hours for
office supplies. Once the current stock of supplies is depleted
and the backlog of excess property is cleared out, 15,830 square
feet of warehouse space will be relinquished. Further, once the
warehouse space has been relinquished, the administrative support
contract will be renegotiated.

                       DETAILS OF FINDING


   The Federal Property Management Regulations establish policies
and procedures for agencies to follow in managing and operating
warehouses. Agencies are required to continuously review their
needs for space and relinquish unneeded space. The amount of
space should be limited to what is needed to accomplish their
programs, and space no longer needed should be considered excess.
These regulations also prescribe property management practices
that limit the amount of property on hand to what is needed to
accomplish their programs.

WAREHOUSE OPERATIONS

   The Commission was not minimizing the need for warehouse
space. About 16,000 square feet of this warehouse space was
being used to store unneeded furniture and equipment, and about
6,000 square feet of this space was used to store office
supplies. Although the Commission recognized that the 25,830
square feet of space was more than needed, it understood it was
required to pay the annual lease cost of about $245,000 whether
or not the space was used. A prior internal management study
dated February 1994 identified excess warehouse space leased by
the Commission. The study recommended reducing the warehouse
space after excessing unneeded furniture and equipment and
implementing a "just-in-time" delivery program for office
supplies. The Commission did not implement these recommendations
due to the understanding that they were obligated to pay for the
leased space until March 31, 2002.

   The Commission used about 22,000 square feet of the warehouse
space to store excess furniture, equipment, and office supplies.
Six thousand of the 22,000 square feet of the space was used to
warehouse office supplies although GSA had a more frequent
delivery program that was available to Government agencies. The
program provides office supplies and other items directly to the
ordering office within 72 hours of order placement thus reducing
the need for agencies to warehouse these items.

   The Commission employed five full-time contractor personnel to
operate the warehouse: a truck driver, a receiving clerk, two
warehouse specialists, and a warehouse manager. The cost to
maintain this staff was about $210,000 annually.

JUSTIFICATION FOR WAREHOUSE RETENTION

   Commission officials informed us that they had met with GSA in
September 1993 to discuss reducing the amount of its leased
warehouse space. As a result of this meeting, officials
understood that if they wanted to eliminate part or all of the
warehouse space, the Commission would be obligated to pay for the
space until another tenant could be found. During the audit, we
discussed this issue with GSA and found that there was a
misunderstanding concerning the leasing of the space. According
to GSA officials, unneeded warehouse space could be relinquished
at any time after giving a 120-day written notice. The notice
would give a description of the area involved, its location, and
the estimated date of release. However, GSA advised that there
had to be a feasible break of space to avoid sharing of space.

IMPACT ON WAREHOUSE OPERATIONS

   Reducing the size of the warehouse operation would reduce
costs for the Commission. We calculated that disposing of
unneeded furniture and equipment would free up about 16,000
square feet of warehouse space. Also, some of the 6,000 square
feet of space used for the storage of office supplies would be
available when the supplies were used up after a more frequent
ordering program was adopted. When this space is vacated, action
should be taken to identify total warehouse space requirements
and relinquish unneeded space. About $1 million in lease costs
would be saved if the vacated space is relinquished no later than
April 1, 1997. Further, savings would be achieved if the
Commission renegotiated its contract for personnel used to
operate the warehouse in proportion to the amount of space that
is relinquished. In addition, other organizations could benefit
by utilizing the excess property in the warehouse.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS


   In response to this report, the Executive Director, Federal
Energy Regulatory Commission, concurred with the recommendations.
A summary of management's comments and our response follows.

   Recommendation 1. Minimize the need for warehouse space by
disposing of excess property and utilizing a more frequent
ordering program for office supplies.

   Management Comments. Concur in principle. Management stated
that they intend to clear out the backlog of excess furniture and
equipment and, in addition to using GSA's excessing program, are
in the process of reviewing alternatives and options for
expediting their excess program. Management also intends to
discontinue warehousing a 3-month stock level of supplies and
implement an ordering process through the GSA Customer Service
Center program that makes delivery within 72 hours. However,
management believes that for items that cannot be purchased
through CSC/GSA, it is more cost effective to purchase in bulk.
Therefore, some warehouse space will be retained for these bulk
items. Even though a "just-in-time" delivery system is designed
to support a decentralized ordering program, the Commission's
ordering program will be centralized. Management believes that
by ordering on a more frequent basis, the warehouse space can
still be reduced.

   Auditor Comments.   Management comments are responsive to the
recommendation.

   Recommendation 2.   Relinquish vacated warehouse space.

   Management Comments. Concur in principle. Management agreed
to relinquish 15,830 square feet of space once the current stock
of supplies is depleted and the backlog of excess equipment is
cleared out. The remaining 10,000 square feet will be used for
paper and supplies (3,000 square feet), computer depot (3,000
square feet), furniture (1,500 square feet), in-transit items
(800 square feet), office space (500 square feet), and
circulating space (1,200 square feet).

   Management did not agree with the estimated savings in lease
costs, as they want to complete negotiations for space
requirements prior to determining the actual savings.

   Auditor Comments.   Management comments are responsive to the
recommendation.

   Recommendation 3. Renegotiate the support services contract
in order to adjust warehouse contractor staff in proportion to
the reduction.

   Management Comments. Concur in principle. Management stated
they will renegotiate the administrative support contract once
the warehouse space has been relinquished.

   Auditor Comments.   Management comments are responsive to the
recommendation.
